Audit Report

Office of Justice Programs, Office for Victims of Crime, 
Grants Awarded to the Lummi Indian Nation, Grant Number 1999-VR-GX-0012, Grant Number 2001-VI-GX-0002, 
Grant Number 2001-VR-GX-0001, Bellingham, Washington

Report No. GR-90-05-007


February 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of three grants awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Office for Victims of Crime (OVC) to the Lummi Indian Nation (LIN) located in Bellingham, Washington.  Two of the grants were Victim Assistance in Indian Country grants and the third was a Childrens Justice Act Partnerships for Indian Communities grant.  As of September 4, 2002, the LIN was awarded a total of $461,950 for the three grants.  We tested the accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants.

Of the $461,9481  expended as of March 31, 2004, we tested transactions totaling $237,024.2   We also tested $81,0203  in local matching funds.  Our audit revealed:4

The accounting and internal control systems were not adequate to ensure that funds are used optimally and that expenditures of funds are in conformance with the grants.

	Financial Status Reports, progress reports and performance reports were either not submitted or were not submitted timely.

	Financial Status Reports were not initially accurate and were submitted multiple times until they accurately reflected the accounting records.

We also identified a total of $238,021 in dollar-related findings for the three grants. 

Grant 1999-VR-GX-0012:

The LIN transferred funds in excess of 10 percent between budget categories (questioned costs of $2,423) and added budget categories (questioned costs of $2,728) without prior approval.

	The LIN claimed $6,600 in unallowable rent, $7,500 in unallowable legal fees, $200 in unallowable advertising costs and $844 in unallowable personnel costs.

Grant 2001-VI-GX-0002:

The LIN added two budget categories without prior approval (questioned costs of $2,593).

	The LIN failed to meet the local match (questioned costs of $22,162) and provided a match that did not meet grant requirements (questioned costs of $31,510).

	The LIN claimed $1,438 in unallowable travel expenses, $1,457 in unallowable vehicle repair and maintenance, $299 in unallowable cleaning expenses, $61,208 in unallowable personnel costs, and $47,103 in unallowable indirect costs.

Grant 2001-VR-GX-0001:

The LIN transferred funds in excess of 10 percent between budget categories without prior approval (questioned costs of $7,217).

	The LIN failed to meet the local match (questioned costs of $11,309).

	The LIN claimed $1,134 in unallowable vehicle insurance and $5,775 in unallowable rent.

	The LIN claimed $11,009 in unsupported transfers into the grant.

	The LIN claimed $13,512 in unallowable expenses after the grant end date of September 30, 2003.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in the Appendix I.   



Footnotes

Individual Grant expenditures were as follows: Grant 1999-VR-GX-0012 $120,000; Grant 2001-VI-GX-0002 $209,950; Grant 2001-VR-GX-0001 $131,998.

	The amounts tested for each grant were: Grant 1999-VR-GX-0012 $40,506; Grant 2001-VI-GX-0002 $148,476; Grant 2001-VR-GX-0001 $48,082. 

	The amounts of local match were as follows: Grant 1999-VR-GX-0012 $12,668; Grant 2001-VI-GX-0002 $53,672; Grant 2001-VR-GX-0001 $14,680. 

	The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.